                     U.S. Department of Energy
                    Office of Inspector General



               AUDIT OF WORK FORCE RESTRUCTURING AT
           THE FERNALD ENVIRONMENTAL MANAGEMENT PROJECT




Report Number: ER-B-96-01
Eastern Regional Audit Office
Date of Issue: April 23, 1996
Oak Ridge, Tennessee 37830

                        AUDIT OF WORK FORCE
                   RESTRUCTURING AT THE FERNALD
                 ENVIRONMENTAL MANAGEMENT PROJECT




                         TABLE OF CONTENTS



                                                          Page

SUMMARY     . . . . . . . . . . . . . . . . . . . . .       1

PART I -     APPROACH AND OVERVIEW                          3

Introduction         . . . . . . . . . . . . . . .          3

Scope and Methodology . . . . . . . .                       3

Background     . . . . . . . . . . . . . . . . .            4

Observations and Conclusions. . . .                         5

PART II - FINDING AND RECOMMENDATIONS                       7

Restructuring Objectives Not Achieved                       7

PART III - MANAGEMENT AND AUDITOR COMMENTS                 13

PART IV - EXHIBIT - Employees Separated and Hired
          as of October 3, 1995
                  U.S. DEPARTMENT OF ENERGY
                 OFFICE OF INSPECTOR GENERAL
                  OFFICE OF AUDIT SERVICES



          AUDIT OF WORK FORCE RESTRUCTURING AT THE
          FERNALD ENVIRONMENTAL MANAGEMENT PROJECT


Audit Report Number:   ER-B-96-01
April 23, 1996


                           SUMMARY

     The Department of Energy (Department) restructured its
work force at the Fernald Environmental Management Project
(Fernald Project) to reduce staffing levels and to modify
the mix of workersm skills in response to budget cuts,
facility closures, and changes in the Fernald Projectms
mission. The objective of this audit was to determine
whether the work force restructurings were effective in
reducing staffing levels and in changing the mix of workersm
skills.

     As of September 30, 1995, the restructurings were not
effective in reducing staffing levels or in improving the
mix of workersm skills. The Fernald Environmental
Restoration Management Corporation (FERMCO) spent $2.9
million to separate 255 employees in October 1993. However,
by September 30, 1994, all but 14 of the employees separated
were either rehired or replaced by new employees with
similar skills. The second restructuring began in October
1994 and is not expected to be completed until May 1996.
The Department expects the second restructuring to reduce
FERMCOms work force by 476 employees at a cost of $12.9
million. However, since the second restructuring began,
FERMCO has hired 265 new employees and at September 30,
1995, had open job announcements seeking 82 additional
employees. Many of these new employees have essentially the
same skills as employees who separated under the two
restructurings.

     The Departmentms objectives were not met because the
Fernald Area Office did not (1) require FERMCO to perform
the skills analysis necessary to identify which employees
were needed to perform the Fernald Projectms current
mission, and (2) effectively monitor FERMCOms
restructuring efforts to ensure that the Departmentms
objectives were met.
     As a result, FERMCO spent $2.9 million in Fiscal Year
(FY) 1994, and planned to spend an additional $12.9 million
in FYs 1995 and 1996 for work force restructurings that have
provided little or no benefit to the Department.

     Management agreed there were some deficiencies in the
restructuring process and agreed to implement the
recommendations.




                    Office of Inspector General

                           PART I

                    APPROACH AND OVERVIEW


INTRODUCTION

     Congress directed the Department of Energy
(Department), through Public Law 102-484, to minimize the
impact of mission changes and associated work force
restructurings on affected workers and local communities.
In response to this direction, the Department developed
guidelines to assist field activities in developing and
implementing work force restructuring plans. The first
restructuring at the Fernald Environmental Restoration
Management Corporation (FERMCO) resulted in the separation
of 255 employees in Fiscal Year (FY) 1994 and the second
restructuring is expected to reduce the work force by 476
employees by May 1996. These restructurings were planned to
reduce staffing levels and change the mix of workersm skills
in response to budget cuts, facility shutdowns, and changes
in the Fernald Environmental Management Projectms (Fernald
Project) mission. The objective of the audit was to
determine whether the restructurings effectively reduced
staffing levels and changed the mix of workersm skills.


SCOPE AND METHODOLOGY

     The audit was performed from January 12, 1995, through
October 27, 1995, at the Department's Fernald Area Office
and FERMCO in Fernald, Ohio. We also met with the Director,
Office of Worker and Community Transition, in Washington,
D.C. To achieve the audit objective, we relied on computer-
processed data in FERMCOms accounting and human resources
information systems. We assessed the accuracy and
reliability of the data and found it adequate for use in
meeting the audit objective. In addition, we:

         reviewed the requirements of Section 3161 of the
       National Defense Authorization Act of FY 1993;
         reviewed the Departmentms work force restructuring
       guidelines established by the Office of Worker and Community
       Transition;

         evaluated the development and implementation of the
       Fernald Area Officems first and second work force
       restructuring plans;

         analyzed restructuring costs incurred by FERMCO in FYs
       1994 and 1995;

         compared staffing levels before and after the
       restructurings; and

         compared job titles of the employees separated to those
       of employees hired during the restructurings.

    The audit was performed in accordance with
generally accepted Government auditing standards for
performance audits and included tests of internal
controls and compliance with laws and regulations
necessary to satisfy the audit objective.
Accordingly, we assessed Departmental policies,
procedures, and responsibilities for work force
restructuring actions. Because our review was
limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed
at the time of our audit.

          The audit results were discussed with the
Director, Office of Worker and Community Transition, on
February 16, 1996, and an exit conference was held with the
Director, Fernald Area Office, on February 21, 1996.


BACKGROUND

          FERMCO operates the Fernald Project under a cost-
plus-award-fee contract awarded by the Oak Ridge Operations
Office and administered by the Ohio Field Office and the
Fernald Area Office. FERMCO assumed responsibility for the
Fernald Project on December 1, 1992. From 1952 to 1989, the
Fernald Project produced a variety of uranium products that
served as feed materials for defense programs at other
Departmental sites. The Department suspended production in
1989, and officially ceased production in June 1991. Since
1989, the primary mission of the Fernald Project has been
environmental restoration and cleanup.

          Subsequent to the end of the Cold War, Congress
enacted legislation which required the Department to
minimize the impact of work force restructurings made
necessary by the end of the Cold War on affected employees
and their local communities. The legislation was Public Law
102-484, Section 3161 (Section 3161), dated October 23,
1992. It required that restructuring be accomplished, when
possible, through the use of retraining, early retirement,
attrition, and other options that minimize layoffs.

          In response to this legislation, the Secretary of
Energy established a Task Force on Worker and Community
Transition (Task Force) to develop guidelines for Department
sites to follow in preparing restructuring plans. The
guidelines required field activities to develop
restructuring plans and submit them to the Task Force for
approval. Further, the guidelines established the role of
the Departmentms field organizations and contractors and
suggested that restructuring plans be based on comprehensive
skills analyses that identify workersm skills necessary to
meet the changing mission. Field activities were encouraged
to develop restructuring plans which minimized layoffs
through the use of voluntary retirements and separations,
retraining and re-employment assistance, and worker
reassignments.

          Since enactment of Section 3161, FERMCO in
coordination with the Fernald Area Office, has prepared two
work force restructuring plans. The first restructuring
plan was approved by the Office of Worker and Community
Transition (formerly the Task Force) in October 1993. The
plan called for the voluntary separation or retirement of 62
FERMCO employees and the involuntary separation of another
198 FERMCO employees in FY 1994. Under this restructuring
plan, 255 employees were provided severance payments based
on their length of service, medical benefits, outplacement
support, and retirement benefits, costing $2.9 million.
Before the first restructuring, FERMCO had 2,417 employees.

          The second restructuring plan was approved by the
Office of Worker and Community Transition in February 1995.
The plan projected the voluntary separation of about 400
FERMCO employees in FYs 1995 and 1996 at a cost of about
$8.2 million. However, 476 employees have volunteered to
separate, and the Department now estimates the cost of the
second restructuring to be about $12.9 million. Most of the
476 employees who are currently being separated under the
plan will receive an incentive bonus of $15,000 in addition
to enhanced severance pay.

          The Fernald Area Office was responsible for
monitoring the restructurings to ensure that FERMCO followed
Departmental guidelines.


OBSERVATIONS AND CONCLUSIONS

          The Fernald Area Officems FY 1994 work force
restructuring did not accomplish the Departmentms objectives
of reducing total employment and changing the mix of
workersm skills. FERMCO spent $2.9 million to separate 255
employees in October 1993. However, by September 30, 1994,
all but 14 of the employees separated were either rehired or
replaced by new employees with similar skills.
          We could not determine whether the second
restructuring will achieve the Departmentms objectives
because it will not be completed until May 1996. However,
FERMCO continued to hire employees to replace those
separated. Since the first restructuring began, FERMCO has
hired over 600 new employees. If this pattern continues,
the second restructuring, estimated to cost $12.9 million,
like the first, will not significantly reduce overall
staffing or substantially change the mix of workersm skills.

          These conditions occurred because the Fernald Area
Office (1) did not require FERMCO to perform a work force
skills analysis to identify employees needed to meet mission
requirements, and (2) did not effectively monitor FERMCOms
restructuring efforts to ensure that the Departmentms
objectives were met. As a result, FERMCO spent $2.9 million
in FY 1994, and planned to spend an additional $12.9 million
in FYs 1995 and 1996, for work force restructurings that
have provided little or no benefit to the Department.
Therefore, we recommended that the Director, Fernald Area
Office, require FERMCO to review the skills of employees
scheduled to be separated, and encourage employees with
skills that are needed to retain their jobs. We also
recommended that the Fernald Area Office monitor FERMCOms
efforts to ensure that the Departmentms restructuring
objectives are effectively met and that employees with
needed skills are retained and not separated and replaced.

          Continuing to separate and replace employees with
needed skills under the restructuring plan is, in our
opinion, a material internal control weakness that the
Department should consider when preparing the yearend
assurance memorandum on internal controls.

                           PART II

                 FINDING AND RECOMMENDATIONS

            Restructuring Objectives Not Achieved


FINDING

     The Departmentms restructuring objectives at the
Fernald Project were to reduce staffing levels and change
the mix of workersm skills. Although FERMCO separated 255
employees in FY 1994 at a cost of $2.9 million, by the end
of FY 1994 the work force was reduced by only 14 employees.
During this restructuring, FERMCO rehired many workers and
hired replacement workers with virtually the same skills as
most of the employees who were separated; thus, the work
force skills mix was not significantly changed. The
Department anticipates that the second restructuring,
expected to cost $12.9 million, will reduce the work force
by 476 employees; however, FERMCO continues to hire
replacement workers. This condition exists because the
Fernald Area Office (1) did not require FERMCO to perform a
skills analysis, and (2) has not effectively monitored
FERMCOms restructuring efforts. As a result, the Fernald
Area Office spent $2.9 million in FY 1994, and plans to
spend an additional $12.9 million in FYs 1995 and 1996, for
work force restructurings that have provided little or no
benefit to the Department.


RECOMMENDATIONS

    We recommend that the Director, Fernald Area Office:

     1)      Require FERMCO to immediately perform a comprehensive
          skills analysis, review the skills of employees scheduled to
          be separated, and encourage employees with skills that are
          needed to retain their jobs;

     2)      Develop future restructuring plans based on
          comprehensive skills analyses in accordance with
          Departmental guidance; and

     3)      Monitor FERMCOms restructuring activities to ensure
          that the Departmentms objectives are met.

MANAGEMENT REACTION

     Management agreed there were some deficiencies in the
FY 1994 restructuring process and concurred with the
recommendations. However, management stated that the FY
1995 restructuring would achieve the Department's
objectives.


                        DETAILS OF FINDING

RESTRUCTURING OBJECTIVES

     The Departmentms objectives for restructuring the work
force at the Fernald Project were to simultaneously reduce
staffing and change the mix of workersm skills. The
Department expected to decrease FERMCOms overall staffing in
response to declining budgets and the shutdown of several
Fernald Project facilities. The Department also expected to
change the mix of workersm skills as remedial investigations
and feasibility studies were completed and the actual clean-
up efforts began. More specifically, the Department
expected to reduce FERMCOms staffing for environmental
sampling and characterization, and to increase staffing for
construction management and subcontract administration. At
the same time, the Department expected to increase staffing
for subcontractors involved in remedial design and
construction, since FERMCOms contract precluded its workers
from performing these functions. For the second
restructuring, the Department also expected to reduce
project management and project controls personnel involved
in administrative activities.
     The Department planned to reduce FERMCOms staffing by
at least 660 employees in FYs 1994, 1995, and 1996. In the
first restructuring, the Department planned to separate 260
employees in FY 1994, including 62 voluntary separations and
retirements and 198 involuntary separations. In the second
restructuring, the Department plans to separate at least 400
employees in FYs 1995 and 1996, all by voluntary separations
and retirements. FERMCO's notice to employees regarding the
voluntary reduction-in-force stated that no replacements
would be hired to fill vacated positions.


OBJECTIVES NOT ACHIEVED

     FERMCOms restructuring efforts have not accomplished
the Departmentms objectives. The first restructuring
neither significantly reduced staffing nor substantially
changed the mix of workersm skills. The second
restructuring has not been completed; however, FERMCO has
continued the same pattern of hiring employees to replace
those separated. Thus, the second restructuring, like the
first, might neither reduce overall staffing nor change the
mix of workersm skills.

     At the beginning of the first restructuring, FERMCOms
total employment was 2,417 and it planned to reduce by 260.
FERMCO separated 255 employees, rehired 73, and replaced
most of the separated employees with new employees who had
essentially the same skills as those separated. FERMCO did
not significantly reduce the number of employees involved in
environmental sampling and characterization. Also, FERMCO
did not significantly increase the number of employees
involved in construction management and subcontract
administration. Consequently, at the end of FY 1994, FERMCO
had reduced its total employment by only 14 and had
essentially the same mix of workersm skills as before the
restructuring.

     In the second restructuring, the Department anticipated
a reduction of at least 400 workers from FERMCOms
employment base of 2,403. This restructuring will not be
completed until May 1996; however, FERMCO has continued the
same pattern of separating employees with needed skills and
hiring replacements. As of September 30, 1995,
FERMCO had separated 249 employees and still had 2,206
employees for a net reduction of 197. This net reduction
was less than the number separated because FERMCO had hired
new employees. Many of these new employees had the same
general skills as the employees who were separated. Also,
FERMCO had open job announcements seeking 82 additional
employees as of September 30, 1995.

     The Exhibit at Part IV of this report demonstrates that
FERMCOms restructurings did not substantially decrease
employment levels nor significantly change the mix of
workersm skills. The Exhibit lists the number of employees
separated in the first restructuring, the number of
employees hired after the first restructuring, and the
number of employees targeted to be separated in the second
restructuring, as of October 3, 1995, for each individual
skill title. If the first restructuring had achieved the
skill mix changes anticipated by the Department, the Exhibit
would show substantial (1) decreases in the skills
associated with environmental sampling and characterization,
and (2) increases in the skills associated with construction
management and subcontract administration. However, the
Exhibit shows no such patterns. FERMCO did not target
specific skills for employee separations and new hires.
Instead, FERMCO separated and then replaced employees with
various types of skills. Moreover, for the four skill
titles with the most separations in the first restructuring-
-clerk typists, secretaries, information record
clerks/specialists, and information management analysts--the
number of new workers hired after the restructuring far
exceeded the number of employees separated.

     As the following examples show, FERMCOms pattern of
separating employees with needed skills and then hiring
replacements occurred in both restructuring efforts.

         FERMCO separated 14 secretaries during the first
       restructuring, but then hired 19 new secretaries before the
       second restructuring. In the second restructuring, FERMCO
       identified 47 secretaries for separation, 3 of whom were
       hired after the first restructuring. Since announcing the
       second restructuring, FERMCO has hired 19 new secretaries.

         FERMCO separated 15 clerk typists in the first
       restructuring and subsequently hired 8 new clerk typists
       before the second restructuring. In the second
       restructuring, FERMCO identified 9 clerk typists for
       separation, 3 of whom were hired after the first
       restructuring. Since announcing the second restructuring,
       FERMCO has hired 17 new clerk typists.

         FERMCO separated 12 information records
       clerks/specialists during the first restructuring and
       subsequently hired 18 new information records
       clerks/specialists before the second restructuring. In the
       second restructuring, FERMCO identified 35 information
       records clerks/specialists for separation, 7 of whom were
       hired after the first restructuring. Since announcing the
       second restructuring, FERMCO has hired 8 new information
       records clerks/ specialists.

         FERMCO separated 5 procurement specialists during the
       first restructuring and subsequently hired 9 new procurement
       specialists before the second restructuring. In the second
       restructuring, FERMCO identified 8 procurement specialists
       for separation, 1 of whom was hired after the first
       restructuring. Since announcing the second restructuring,
       FERMCO has hired 4 new procurement specialists.

     During the audit, we received several formal and
informal allegations of improprieties in the FERMCO
restructuring processes. Some complainants alleged that
workers who were hired by FERMCO's predecessor organizations
at the Fernald Project were unfairly targeted for separation
and replaced with new hires transferred in from other
components of Fluor Daniel, Inc. Others alleged that
selected workers were given separation and early retirement
benefits for which they were not entitled. We verified that
in at least a few instances, workers hired by FERMCO's
predecessors were separated and replaced by new hires
transferred in from other components of Fluor Daniel, Inc.
However, we could not determine, with any degree of
certainty, whether the new hires were more qualified or less
qualified than the employees separated. Also, we referred
an allegation of improper benefit payments to specific
workers to the Director, Office of Worker and Community
Transition, whose staff is still evaluating the allegation.

     Management stated that many of the hirings shown in the
Exhibit at Part IV were justified by changes in work scope,
natural progression, attrition, and the requirements of the
new collective bargaining agreement. Also, management
stated that any instance of separating FERMCO employees and
replacing them with new hires from other Fluor Daniel, Inc.,
components may have been totally proper considering the work
to be accomplished and the particular skills of the workers
involved. Nevertheless, we believe the exhibit strongly
suggests a pattern of separating employees with needed
skills and hiring replacements with similar skills, with
little change in the overall employment level.


RESTRUCTURING PLANS SUBMITTED WITHOUT SKILLS ANALYSIS

     These conditions occurred because the Fernald Area
Office did not require FERMCO to perform the skills analysis
necessary to identify which employees should be retained and
which should be separated. In addition, the Fernald Area
Office did not effectively monitor FERMCOms restructuring
efforts.

Skills Analysis Not Performed

     Preliminary Departmental guidance, issued in April 1993
and revised in March 1994, suggested that field activities
develop restructuring plans based on a comprehensive skills
analysis. The analysis was necessary to (1) determine
worker skills required for the site mission, (2) compare
skills and capabilities of the current work force to future
needs, (3) identify worker retraining needs, and (4)
identify workers with critical skills that must be retained.
However, FERMCO did not perform a skills analysis, and the
Fernald Area Office submitted both restructuring plans for
Headquartersm approval without identifying the specific
occupations or skills titles to be increased or decreased by
the restructurings.
     In the absence of a skills analysis, FERMCOms staffing
reductions were based on collective bargaining agreements
for union employees and division managersm rankings for
salaried employees. Once Departmental budgets were
established, division managers identified and separated
hourly employees based on their respective collective
bargaining agreements. Additionally, salaried employees
were ranked by division managers on factors such as work
habits, experience, and support for company values.
Employees with the lowest rankings were separated without
regard to skills possessed. Consequently, FERMCO separated
employees with needed skills and hired new employees to
replace those separated.

     Despite the lack of a skills analysis, the Fernald Area
Office submitted two restructuring plans, anticipating the
separation of more than 600 FERMCO employees, for
Headquartersm approval. FERMCO provided the Fernald Area
office with details of its ranking system for identifying
employees to be separated. FERMCO did not propose to
identify critical skills needed to meet the Fernald
Projectms future mission nor to identify employees who could
be reassigned or retrained rather than separated. The
Fernald Area Office should have determined that the
restructuring plans did not meet the basic requirements of
Section 3161, especially the requirement to minimize
layoffs. It should have required FERMCO to pursue
opportunities for employee reassignments and retraining to
avoid, or at least minimize, the number of layoffs.

Restructuring Not Effectively Monitored

     After the first restructuring began, the Fernald Area
Office did not closely monitor FERMCOms restructuring
efforts to ensure that the Departmentms objectives were met.
The Fernald Area Office did not monitor the occupations of
workers who were separated or hired to ensure that FERMCO
(1) reduced the number of workers involved in environmental
sampling and characterization, (2) increased the number of
workers involved in construction management and subcontract
administration, and (3) minimized layoffs by retaining
workers with needed skills. The Fernald Area Office did not
require periodic status reports on the numbers of employees
hired and separated by occupation. Therefore, the
Department was not aware that employees with needed skills
were continually being separated and replaced.

     Even though FERMCO had not completed the second
restructuring and its success was questionable, the Fernald
Area Office gave FERMCO $405,000 in award fee for an
"Excellent" rating on its work force restructuring efforts
for the 6 months ended September 30, 1994.


LIMITED BENEFITS

     The Fernald Area Office spent $2.9 million in FY 1994,
and plans to spend an additional $12.9 million in FYs 1995
and 1996 for work force restructurings that have provided
little or no benefit to the Department. Also, the Fernald
Area Office is likely to pay for similar restructurings in
future years because FERMCO still has not identified future
staffing needs and continues to hire replacements for
employees that it separates.

     The funds spent on these restructurings, that provided
little or no benefit to the Department, cannot be recouped.
Nevertheless, this experience should not be repeated. More
restructuring will be necessary in the future as the cleanup
workload decreases and is ultimately completed. The future
expenditures could far exceed the expenditures to date.
                          PART III

               MANAGEMENT AND AUDITOR COMMENTS


     The Director, Fernald Area Office, and the Director,
Office of Worker and Community Transition, responded to a
draft of this report. A summary of both responses follows.

     The Director, Fernald Area Office agreed that there
were some deficiencies in planning and implementing the FY
1994 restructuring effort. Management stated that those
deficiencies were the result of budgetary fluctuations, work
scope changes, and significant labor relations developments
subsequent to implementation of the FY 1994 restructuring
plan. However, corrective actions were taken in the FY 1995
restructuring based upon lessons learned in the FY 1994
restructuring. Also the Fernald Area Office took a more
active role in implementing the FY 1995 plan. Management
stated that the FY 1995 restructuring is clearly meeting the
Department's objective for salaried employee reductions.
Salaried employment decreased from 1,826 on December 30,
1994, to 1,523 on February 9, 1996. The salaried target
level for May 30, 1996, is 1,351, and it will be achieved.

     The Director, Office of Worker and Community
Transition, stated that he has tasked his Deputy Director to
thoroughly investigate the issues covered in this report.
The Director stated that the investigation has tentatively
concluded that (1) satisfactory planning was lacking in the
FY 1994 restructuring, (2) certain union employees had to be
rehired because of changes in the labor agreement, and (3)
some rehiring was necessary because of budget changes during
the year or can be explained due to attrition. The Director
also stated that the FY 1995 restructuring will meet the
planned work force reduction and change the skills mix to
place more emphasis on environmental remediation. The
Director further stated that he had not received
satisfactory information to reach a conclusion on a number
of other issues raised in this report.

     The Director, Fernald Area Office, agreed to implement
the recommendations. Management's comments on each
recommendation follow along with auditor comments.

     Recommendation 1. Require FERMCO to immediately
perform a comprehensive skills analysis, review the skills
of employees scheduled to be separated, and encourage
employees with skills that are needed to retain their jobs.

     Management Comments. Management concurred and stated
that it would make every effort to place employees scheduled
for separation in appropriate positions before their
currently scheduled separation.

     Auditor Comments. Management's corrective actions are
appropriate and should result in retaining employees needed
for the future and, at the same time, reduce the amount of
severance payments.

     Recommendation 2. Develop future restructuring plans
based on comprehensive skills analyses in accordance with
Departmental guidance.

     Management Comments. Management agreed with the
recommendation and stated that there have been three
iterations of FERMCO's skills mix analyses and each resulted
in improvements. FERMCO will continue to make improvements.

     Auditor Comments. Management's actions should result
in the necessary improvements if a comprehensive skills
analysis is performed before any future restructurings are
implemented.

     Recommendation 3. Monitor FERMCO's restructuring
activities to ensure that the Department's objectives are
met.

     Management Comments. Management agreed to continue
monitoring work force restructuring activities in a manner
consistent with Departmental objectives, related guidance,
and funding constraints. Management stated that as part of
the lessons learned from the FY 1994 restructuring, it took
a much more active role in the implementation of the FY 1995
restructuring plan. All plan contents, particularly the
voluntary reduction in force portion, were the product of
extensive discussions, and where appropriate, management
direction and involvement.

     Auditor Comments. Management's actions should result
in the needed improvements if additional actions are taken
to ensure that employees separated are not replaced with
newly hired employees with similar skills.

                            Report Number:   ER-B-96-01
Exhibit
                                                  Page 1 of 4

                                   PART IV
              EMPLOYEES SEPARATED AND HIRED AS OF OCTOBER 3, 1995


                                NUMBER          NUMBER TO
                               SEPARATED            BE
                                  IN            SEPARATED
                                                    IN
                                 FIRST   NUMBER   SECOND
                                           OF
        SKILL/TITLE            RESTRUCTU   NEW RESTRUCTU
                                 RING     HIRES    RING

ACCOUNTANT I, II, III & SR &       3        1       3
TECH II
ADMINISTRATIVE ASSISTANT           -        2       5
ADMINISTRATIVE SUPERVISOR          -        -       1
ANALYTICAL CHEMIST I, II,          6        3       7
III & SR
ASS'T WATER PLANT OPERATOR         -        7       -
ASSOC CONSTRUCTION ENGR, I,        1        2       2
II
ASSOC CONSTRUCTION SUPPORT         -        2       2
ENGR, I
ASSOC ENGINEER I, II               7        3       7
ASSOC INFO MGMT                    1        -       -
ANALYST/SPECIALIST
ASSOC MATERIAL CONTROL             -        -       3
SPECIALIST
ASSOC PROCESS/SPECIALIST           2        -       5
ENGR I, II
BOILER OPERATOR                    -        1       -
CARPENTER                          -        4       -
CLERK TYPIST I, II & SR           15       25       9
CONSTRUCTION ENGR AIDE II          -        1       1
CONSTRUCTION ENGR I, II            -        6       5
CONSTRUCTION ENGR MGR I            -        -       3
CONSTRUCTION MGR I & SR            -        3       1
CONSTRUCTION SUPERINTENDENT        -        -       1
II
CONSTRUCTION SUPPORT ENGR I,       2        2       -
II
COOK                               1        -       -
CO-OP, INTERN, GRADUATE            -       72       -
ASSISTANT
COST ANALYST                       -        1       -
DEPARTMENT ADMINISTRATOR, I,       5        3       11
II
DIRECTOR OF AUDIT                  -        -       1
DIRECTOR OF CERCLA/RCRA UNIT       -        2       -
DIRECTOR OF ENGINEERING            -        1       -
DIRECTOR OF QUALITY                -        1       -
DIRECTOR OF STRATEGIC              -        1       -
PROGRAMS I
DRAFTER III & SR                   1        1       -
ELECTRICIAN                        -       13       -
EMERGENCY RESPONSE PLANNER         1        -       -
PRINCIPLE ENGR, ENGINEER I,        9        8       16
II & SR
ENGINEERING AIDE I, II, III        2        4       4
ENGINEERING COORD II               -        -       2
PRINCIPLE ENV/LAB SCIENTIST,       6        6       41
I, II, III & SR
ENV/LAB TECHNICIAN I,II, III       2       14       19
& SR
ENV PROJECT MGR                    -        1       -
ENV PROTECTION                     2        1       10
ENGR/SPECIALIST I, II, III &
SR
ENV WASTE ENGR/SPECIALIST I,       3        5       12
II, III & SR
Report Number: ER-B-96-01
Page 2 of 4


                                 NUMBER         NUMBER TO
                                                   BE
                               SEPARATED        SEPARATED
                                   IN              IN
                                 FIRST   NUMBER SECOND
                                           OF
        SKILL/TITLE            RESTRUCTU   NEW RESTRUCTU
                                  RING    HIRES   RING

EXECUTIVE VP                       -        3       -
FIRE FIGHTER/ER SPECIALIST         1        1       -
II/ PREVENT INSPECT.
FIRE PROTECTION                    1        -       -
ENGR/SPECIALIST I
GENERAL SUPERVISOR                 -        -       1
GRAPHICS ARTIST II & SR            1        -       1
HAZARDOUS WASTE TECH               45      34       -
(HAZWAT)
HEALTH PHYSICIST II, III           -        3       2
HEALTH PHYSICS TECHNICIAN          -        1       -
III
HR/IR TECHNICIAN I, II & SR        1        1       2
HUMAN RESOURCES SPECIALIST         1        2       3
I, II, III & SR
INDUSTRIAL HYGIENE                 -        2       4
TECHNICIAN I, II, & SR
INDUSTRIAL HYGIENIST II,III        1        1       1
INDUSTRIAL RELATIONS REP III       1        -       -
INFO MGMT ANALYST/SPECIALIST       9       14       4
I, II, III & SR
INFO MGMT TECHNICIAN I             2        -       -
INFO/RECORDS CLERK &               12      26      35
SPECIALIST I, II, III & SR
INSTRUMENT MECHANIC                -        6       -
INVENTORY/SUPPLY ANALYST I,        1        6       4
SPECIALIST
INVENTORY/SUPPLY SUPERVISOR        -        1       1
LABORER                            1       41       -
LAUNDRY WORKER                     1       12       -
LEAD INFO MGMT                     -        3       4
ANALYST/SPECIALIST
LEAD MAILROOM SUPPORT              -        4       -
SPECIALIST, I,II
LIBRARY SUPERVISOR                 -        -       1
MAINTENANCE PLANNER I &            3        3       5
SUPERVISOR I
MATERIAL COST ESTIMATOR I          -        -       1
MATERIAL CONTROL SPECIALIST        -        -       1
I
MGR ADMINISTRATIVE/FACILITY        -        1       3
SERVICES, SR MGR
MGR CONTRACT ADMINISTRATION,       1        1       -
SR MGR
MGR ENGINEERING                    -        1       -
MGR HUMAN RESOURCES                -        1       -
MGR INFO/RECORDS MGMT              -        -       2
MGR MATERIAL C&A, SR MGR           -        -       3
MGR PUBLIC AFFAIRS                 -        -       2
MGR QUALITY, SR MGR                3        2       2
MGR RAD ASSESSMENT                 -        1       -
MGR RADIOLOGICAL DOSIMETRY         -        1       -
MGR RSO OPERATIONS                 1        -       -
MGR SAFETY ENGINEERING             -        1       -
MGR SECURITY/SECURITY              1        -       1
ADMINISTRATOR
MGR SUPPORT SERVICES               -        1       2
MGR TECH PUBLICATIONS              1        -       2
MGR TECHNOLOGY PROGRAMS            -        -       1
MGR UTILITIES SERVICES             -        -       1
MGR I, II ANALYTICAL LAB           4        -       -
SERVICES
MGR I, II, III ENV WASTE           -        4       3
MGMT
MGR I INFO SYSTEMS                  1        -      2
MGR I, II PROGRAM MGMT              1        -      3
MGR I MAINTENANCE SERVICES          -        -      1
                               Report Number: ER-B-96-01
Page 3 of 4


                                  NUMBER         NUMBER TO
                                                     BE
                                SEPARATED        SEPARATED
                                    IN               IN
                                  FIRST   NUMBER   SECOND
                                            OF
         SKILL/TITLE            RESTRUCTU   NEW RESTRUCTU
                                   RING    HIRES    RING

MGR II ENV SCIENCE                     -        -       1
MEDICAL TECHNOLOGIST                   -        -       1
MILLWRIGHT                             3        8       -
MOTOR VEHICLE OPERATOR                 -        1       -
OPERATIONS AREA SUPERVISOR             -        -       1
OPERATIONS MGR I, II, III              1        3       4
OPERATIONS SUPERVISOR                  4        3       10
PHOTOGRAPHIC TECH               -     1   -
PIPEFITTER                      5    15   -
PORTER                          -    29   -
PRESIDENT                       -     1   -
PRINCIPLE INFO/RECORDS          3     -   3
SPECIALIST I, II
PRINCIPLE MATL/PROP CNTRL       -     1   -
SPECIALIST
PRINCIPLE PROCESS/SPECIALTY     2     3   5
ENGR, I, II & SR
PRINCIPLE PROCUREMENT           5    13   8
SPECIALIST, I, II & SR
PROJECT CTRLS ASSOC I, II       5     -   8
PRINCIPLE PROJECT CTRLS         2    15   11
ENGR/SPECIALIST, I, II & SR
PROJECT ENGR I, II & SR,        5     3   16
PRINC
PROJECT MGR II, III             -     2   1
PUBLIC AFFAIRS SPECIALIST I,    4     1   6
II, III & SR
QUALITY VERIFIER II & SR        -     1   3
RAD CONTROL TECH I, II, III &   2    26   -
SR
RECEPTIONIST                    -     -   1
REG COMPLIANCE                  7     3   2
ENGR/SPECIALIST, I, II, III
REPRO EQUIPMENT OPERATOR & SR   1     3   -
SAFETY ENGR/SPECIALIST I, III   -     2   5
& SR
SECRETARY I, II, III & SR       14   38   47
SECURITY OFFICER                -     3   -
SITE SERVICES SUPERVISOR        -     -   1
SR COMPUTER OPERATOR            -     -   1
SR CONT PERF IMP SPECIALIST     -     -   1
SR COUNSEL                      -     -   1
SR EMERGENCY PLANNER            -     -   1
SR MGR ACCOUNTING               -     -   1
SR MGR ENV PROTECTION           -     -   1
SR MGR ENV SCIENCE              -     -   1
SR MGR ENV WASTE MGMT           -     1   -
SR MGR INDUSTRIAL RELATIONS     -     1   -
SR MGR PROCUREMENT              -     1   -
SR MGR PROJECT CONTROLS         -     2   -
SR MGR RAD CONTROL              -     1   -
SR MGR STRATEGIC PROGRAMS INT   -     1   -
SR NURSE                        -     1   -
SR PHOTOGRAPHIC TECH            2     -   -
SR SUPV ADM/FACILITY SERVICES   -     1   3
SR TECHNICAL MGR                -     1   1
STOREROOM ATTENDANT             -     1   -
SUPPORT SVCS SUPERVISOR I, II   1     -   3
SUPERVISOR ANALYTICAL LAB       -     1   2
SVCS
Report Number: ER-B-96-01
Page 4 of 4
                                NUMBER           NUMBER TO
                                                    BE
                              SEPARATED          SEPARATED
                                  IN                IN
                                FIRST     NUMBER SECOND
                                            OF
         SKILL/TITLE          RESTRUCTU    NEW   RESTRUCTU
                                 RING     HIRES    RING

SUPERVISOR ENV SCIENCE            -         -        1
SUPERVISOR FIRE PROT              -         -        1
ENGINEERING
SUPERVISOR INFO MGMT              -         -        1
SUPERVISOR INFO/RECORDS           1         1        1
MGMT
SUPERVISOR PROCUREMENT            1         -        -
SUPERVISOR QUALITY                -         -        1
SUPERVISOR RAD CONTROL            -         2        1
SUPERVISOR TRAINING               1         2        -
PRINCIPLE TECH/PROGRAM            8         8       30
SPECIALIST, I, II, III & SR
TECH PUBLICATIONS                 -         -        1
SUPERVISOR
TECH WRITER/EDITOR I, II,         2         6        3
III
TRAFFIC SUPERVISOR                -         1        2
TRAINING COORD                    -         -        1
TRAINING SPECIALIST I, II,        5         9        7
III & SR
UTILITIES SVCS SUPERVISOR I       -         -        1
UTILITY WORKER                    3         -        -
WAREHOUSE TECH II                 -         -        1
WASTE WATER PLANT OPERATOR        -         11       -
WELDER                            1         -        -
WELLNESS COORDINATOR              -         1        -
WORD PROCESSING TECH II,          4         14       4
III & SR
LONG TERM DISABILITY              -         -        1

TOTALS                           255       616      476
